Audit of NARA’s Public Transit Subsidy Program


         OIG Audit Report No. 12-17


            Date August 27, 2012
Table of Contents


Executive Summary ...................................................................................... 3

Background ................................................................................................... 5

Objectives, Scope, Methodology .................................................................. 7

Audit Results ................................................................................................. 9

Appendix A - Implementation of OMB Prescribed Controls………....16

Appendix B – Acronyms and Abbreviations ............................................ 16

Appendix C - Management’s Response to the Report ............................ 18

Appendix D - Report Distribution List ..................................................... 19
                                                             OIG Audit Report No. 12-17


Executive Summary

On April 21, 2000, President Clinton signed Executive Order 13150 (the Order),
establishing the transportation fringe benefit program. This Order was established to
reduce Federal employees’ contribution to traffic congestion, air pollution, and to expand
commuting alternatives. The Order allows Federal agencies to offer qualified Federal
employees benefits to cover employee commuting costs incurred through the use of mass
transportation. In May 2007, the Office of Management and Budget (OMB) issued
Memorandum 07-15, Federal Transit Benefits Program, which identified and
documented Transit Benefits Internal Controls to improve the administration of the
program.

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) performed an audit of NARA’s Public Transit Subsidy Program (transit program)
to determine the adequacy of internal controls over the administration of the transit
program.

We found evidence that all OMB internal controls were addressed in NARA policies or
in NARA’s newly implemented monthly internal reviews of transit benefits processes.
However, we identified these controls had not been implemented adequately or
effectively to reduce the likelihood of fraud, waste, and abuse. Specifically, we found the
following:

   •   NARA officials did not verify the completeness and accuracy of information in
       employee transit benefit applications. Incomplete and inaccurate applications and
       overstated commuting costs result in the inappropriate disbursement of Federal
       funds.
   •   NARA employees did not renew their transit benefits annually as required. Of the
       29 in our sample, five did not meet this requirement. Thus, these employees
       should have been ineligible to participate in the transit program until a renewal
       application was received.
   •   Based on NARA policy “If you regularly use subsidized parking supplied by a
       Federal agency, you are not eligible to participate in the PTSP. If you receive
       subsidized (or free) parking, you must relinquish your parking permit before
       receiving the subsidy.” Of the 74 transit participants at Archives II (AII), seven
       redeemed $8,008 in transit benefits from October 2009 through May 2011 while
       also on NARA’s parking lists.
   •   NARA has not implemented an effective process to determine whether employees
       adjust their benefits based on travel, telework, or change of address.
   •   Exit procedures were not effective to prevent separated employees from receiving
       transit benefits to which they are not entitled. For example, of the 25 transit
       participants that have separated from NARA, almost half continued to receive
       transit benefits after they left NARA.


                                        Page 3
                     National Archives and Records Administration
                                                             OIG Audit Report No. 12-17


   •   NARA’s listing of transit program participants is not accurate. The Department
       of Transportation (DOT) system includes NARA employees that no longer are on
       NARA’s list or have cancelled their benefits.

We identified several improvements to be made to NARA’s Public Transit Subsidy
Program. We made nine recommendations to assist the agency in strengthening the
transit program to address OMB internal control requirements and to improve the
effectiveness of NARA’s Public Transit Subsidy Program.

The issuance of this report was delayed due to staffing shortages and other higher priority
projects. We believe this report is still timely and relevant for management to take
action.




                                        Page 4
                     National Archives and Records Administration
                                                                      OIG Audit Report No. 12-17


Background

Executive Order 13150 dated April 21, 2000, established the Federal Workforce
Transportation program to reduce Federal employees’ contribution to traffic congestion,
air pollution, and to expand commuting alternatives. Each Federal agency is permitted to
provide a non-taxable transit subsidy designed to encourage its employees to use mass
transit for their daily commute.

In April 2007, the Government Accountability Office (GAO) reported numerous
instances of fraud and abuse of the Federal Workforce Transportation program by Federal
employees. To prevent and deter further abuse, the Office of Management and Budget
issued a memorandum on May 14, 2007, listing 10 minimum internal controls and
requiring all Federal agencies to confirm, no later than June 30, 2007, that they had
implemented these controls.

Transit benefit subsidies at NARA are disbursed in several ways due to the various
geographical areas covered. Transit passes come in the form of Metrochek, vouchers or
SmarTrip® downloadable cards in the Washington, DC area. Other major cities use
TranBen Checks, vouchers, debit cards or CommuterChecks. At the time of our audit,
the maximum benefit amount was $230 1 per month. However, an individual employee
may not receive benefits exceeding their actual public transit commuting cost.

In FY 2009, responsibility of the transit program moved from the Performance and
Accountability Staff to the Facilities and Property Management Division (BF). NARA’s
Facility and Property Management Office (BF), under the Chief Operating Officer,
administers the Transit Program. The National Transit Coordinator (NTC) in BF
manages the transit program at NARA, which includes maintaining current policies,
procedures, and internal controls adequate to the scope of the program. The Local
Transit Coordinators (LTC) at NARA facilities, including Washington DC area locations,
Presidential Libraries, Regional Archives, and Regional Records Service Facilities
provide assistance to participants as necessary to complete forms and resolves any
problems with receipt of correct subsidy amounts.

In FY 2010, the local transit coordinator at AII left NARA. While they were updating the
transit program, BF found they cannot rely on NARA-wide controls over parking or exit
procedures to assist in managing the transit program because these controls may be
inadequate.

BF performs monthly internal review on participant files and transit benefits received
over a three month period. BF randomly selects 10 participants including at least two

1
  A provision in the American Recovery and Reinvestment Act of 2009 that temporarily increased transit
subsidy benefits to $230 has expired. The monthly transit subsidy benefit decreases from $230 to $125
effective January 1, 2012.


                                            Page 5
                         National Archives and Records Administration
                                                            OIG Audit Report No. 12-17


participants from outside the Washington, DC area. BF reviews participant’s files to
make sure files are current. BF contacts the participant’s supervisor and reviews GSA
Form 873 Annual Attendance Record for leave data and transit data to determine how
much was downloaded for a specified time period and compares it to their approved
amount. BF also inquires with BX whether the employee also has a parking permit.

At the time of this audit, 613 NARA employees were participating in the Transit
Program. These participants were authorized to receive up to $82,825 in total monthly
benefits. In January 2011, NARA participants received or downloaded $64,415.95 worth
of transit benefits.
              NARA’s List of Public Transit Subsidy Program Participants

        Geographical Location       Authorized          Number of          Average
                                   Monthly Transit      Participants    Monthly Transit
                                      Benefits                             Benefits

Washington, DC                          $65,827             434             $151.68

San Francisco and San Bruno, CA         $4,368               31             $140.90

St. Louis, MO                           $3,264               48              $68.00

Philadelphia, PA                        $3,165               34              $93.09

New York                                $,2,464              17             $144.94

Boston, MA                              $1,895               25              $75.80

Chicago, IL                              $430                5               $86.00

Dayton, Ohio                             $400                7               $57.14

Atlanta, GA                              $320                4               $80.00

Denver, CO                               $237                3               $79.00

Anchorage, AK                            $188                2               $94.00

Kansas City, KS                          $147                2               $73.50

Seattle, WA                              $120                1              $120.00

Total                                   $82,825             613             $135.11




                                         Page 6
                      National Archives and Records Administration
                                                             OIG Audit Report No. 12-17


Objectives, Scope, Methodology


The objective of this audit was to determine the adequacy of internal controls over the
administration of the NARA Public Transit Subsidy Program. Specifically, our review focused
on whether transit controls identified by OMB were adequately implemented by NARA.

To understand the requirements for the Public Transit Subsidy Program, we reviewed
applicable documents including (a) Executive Order 13150, Federal Workforce
Transportation; (b) OMB Memorandum 07-15, Federal Transit Benefits Program;
(c) NARA Interim Guidance 741-1A, Changes in Public Transit Subsidy Program,
February 5, 2009; (d) NARA 701, Public Transit Subsidy Program and Qualified
Transportation Fringe Benefits, April 7, 2005; (e) NARA Notice 2008-254, Public
Transit Program Changes, August 20, 2008; (f) NARA Notice 2007-268,
Implementation of the Mandatory SmartBenefits® Program; (g) Interagency Agreement
between NARA and DOT for Transit Subsidy Program support; and (h) DOT's
 Oversight Guidelines for Transit Benefit Coordinators.

To accomplish our objectives we did the following:
   • Reviewed NARA’s Public Transit Benefit Program against requirements set forth in
       OMB Memorandum 07-15, Federal Transit Benefits Program.
   • Evaluated the completeness of NARA’s list of participants.
   • Compared NARA’s list of participants at Suitland Parking and Archives II (AII) to
       parking permit data and NARA’s new Parking system.
   • Obtained transit benefit data from Department of Transportation.
   • Recalculated commuting expenses for reasonableness.
   • Reviewed transit benefit participants for ineligible persons, such as contractors using
       data from Human Capital Office.
   • Evaluated recertification process.
   • Evaluated controls over independent verification of eligibility and commuting costs.
   • Evaluated controls over canceling transit benefits and identified overpayments to
       separated employees.
   • Obtained a list of employees that left NARA from October 1, 2009 through March 31,
       2011 from the Human Capital Office.
   • Evaluated Facilities and Property Management’s monthly internal review process.
   • Held discussion with from Facilities and Property Management (BF), Security
       Management (BX), and several local transit coordinators across the country.

We judgmentally selected at least two applicants from the top nine locations for a sample
of 29 transit applicants out of 613 transit participants on NARA’s List of Transit Benefit
Participants.

Our audit work was performed between February 2011 and November 2011. All audit
work was performed at Archives II (AII) in College Park, MD. We conducted this

                                        Page 7
                     National Archives and Records Administration
                                                              OIG Audit Report No. 12-17


performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

The issuance of this report was delayed due to staffing shortages and priority of other
projects. We believe this report is still timely and relevant for management to take
action.




                                        Page 8
                     National Archives and Records Administration
                                                             OIG Audit Report No. 12-17


Audit Results

Key OMB internal controls and NARA internal controls were
not effectively implemented
NARA has established key controls identified by OMB (See Appendix A) in their
policies and procedures; however, many of these controls have not been implemented
effectively. This occurred because management’s review of applications did not include
effective verification of information on transit applications including commuting costs.
NARA implemented a monthly internal review process over transit activity; however,
key controls were not included in their review. As a result, unauthorized disbursements
of Federal funds could be made to ineligible transit participants.

Application and Independent Verification Requirements Not Met

During the course of our review, we sampled 29 transit benefit applications to determine
whether controls over transit benefit applications were effective. We found:

   •   Four applications were incomplete and missing data such as work phone number,
       name of company used to support their projection of monthly public transit,
       signature for employee certification of eligibility, signature for employee
       certification of the warning against making false statements in benefit application,
       and the national transit coordinator’s signature approving the application.
   •   Nine applicants contained inaccurate commuting costs.
   •   Five participants enrolled in the program did not renew their transit benefit
       application annually, as required by NARA.

Controls over the review of applications were weak because no actual verifications were
performed to determine the completeness and accuracy of information on the application.
The NTC said she does not verify commuting costs; rather she reviews the application for
reasonableness of commuting costs. Controls over renewing applications were weakened
during the transition of the transit program moving from Performance and Accountability
Staff to the Facilities and Property Management Division.

Without complete applications, a strong annual renewal process, and appropriate
verifications ineligible employees may receive transit benefits and commuting costs may
be overstated without risk of detection resulting in unauthorized disbursement of Federal
funds.




                                        Page 9
                     National Archives and Records Administration
                                                              OIG Audit Report No. 12-17

Applicants Not Checked Against Parking Benefits Records


NARA employees that receive transit benefits also have a record of parking benefits.
NARA 701.12 states that “If you regularly use subsidized parking supplied by a Federal
agency, you are not eligible to participate in the PTSP. If you receive subsidized (or free)
parking, you must relinquish your parking permit before receiving the subsidy.”

BF is concerned there is no way to monitor participants that park at AII if participants do
not register their vehicle in the automated License Plate Recognition system. The
automated License Plate Recognition system deployed by NARA is not properly
functioning. Previously, NARA used parking permits that were logged in the badge
system. NARA started to collect parking permits and then stopped collecting them.
Parking permit information in the badge system may not be accurate because NARA may
not have updated the system when parking permits were collected.

We reviewed all 74 transit participants from AII against NARA’s Badge System with
parking permit identification numbers and found seven participants potentially received
$8,008 in benefits they were not entitled to. Authorized benefits for AII participants from
October 2009 through May, 2011 are estimated at $228,480. BF followed-up with six
participants and was told they already handed in their parking permit or the employee left
NARA. However this may not have been updated in the parking system.


  List of transit benefits potentially received from October 2009 through May 2011
for those AII transit participants that also have a record of having a parking permit

                   Employee Count                Benefits Received
                         1                           2,309.30
                         2                           1,616.75
                         3                           1,428.00
                         4                           1,355.60
                         5                            716.00
                         6                            460.00
                         7                            122.40
                       Total                         8,008.05


The name of employees on NARA’s parking lists and on NARA’s list of transit program
participants has been referred to our Office of Investigations for further review.


Benefits Adjusted Due to Travel, Telework, or Change of Address Not Verified

Transit participants may not be adjusting their benefits for travel, telework, or change of
address. In its monthly internal review process, the supervisor is notified when their
employee is selected for the internal review of transit activity and the supervisor provides

                                         Page 10
                      National Archives and Records Administration
                                                              OIG Audit Report No. 12-17


any work address changes or information needed. BF did not request information from
other NARA offices supporting travel, telework, and change of address information to
determine the effect on the participant’s transit benefits.

The NTC stated she did not know how to get travel or address information. The NTC
was concerned this type of personally identified information could not be provided to
their office so BF was not using ‘outside sources’ other than the supervisor.

Offices within NARA need to communicate and share information to successfully
administer the transit program. NARA’s initiative to create a One NARA provides pillars
that employees should stand by, including working as one NARA and not just as
component parts, taking responsibility for meeting customer needs even internally,
insisting ‘support’ offices enable the success of ‘program’ offices and making internal
information accessible to staff by default. Personally identified information may be
shared internally as long as there is a business need and information is secured in
accordance with NARA guidance.
Without testing whether employees adjust their benefits based on travel, telework, or
change of address during BF’s monthly internal reviews, participants may be receiving
ineligible transit benefits.
At the end of our fieldwork, Washington DC Metro’s SmartBenefits program changed
the way participants load transit benefits on their SmarTrip® card. Instead of participants
self-loading benefits to their SmarTrip® card, after reducing the eligible amount based on
the number of days of non-use of mass transit in the prior month, their eligible benefits
will automatically be loaded on their SmarTrip® card starting December 1, 2011. This is
important because participants in this area will no longer need to adjust their benefits
each month for days they did not use mass transit (telework, travel, leave) in the previous
month. Unused monthly benefits will be credited back to NARA’s account.


Separated employees continue to download transit benefits

Separated employees continued to download transit benefits after they left NARA.
NARA transit policy requires participants of the transit benefit program to fill out NA
Form 6041c to cancel their transit benefits and return all unused benefits. In addition,
NARA exit clearance process includes a provision for the supervisor or administrative
officer to email the transit program when an employee is leaving NARA.

Participants are not submitting the NA Form 6041c to cancel their benefits prior to
leaving NARA. The Washington area LTC said she rarely receives emails regarding
separating employees so transit benefits can be cancelled. Based on the FY 2011
Financial Statement Audit Report (OIG Report #12-03, December 15, 2011) a
recommendation remains open based on a finding that supervisors did not always adhere
to the policy of processing employee exit clearance forms and recommended supervisors
receive training in their exit clearance process responsibilities.


                                        Page 11
                     National Archives and Records Administration
                                                              OIG Audit Report No. 12-17


We compared NARA’s listing of transit participants to a list of employees that left
NARA from October 1, 2009 through March 31, 2011. Authorized transit benefits were
estimated at $1.6 million for the same period. We identified 25 transit participants that
left NARA during that time. Our review of those 25 transit participants separated from
NARA revealed 12 received, in total, $1,254 after they left NARA.


             List of transit benefits received after participants left NARA

                   Employee Count                Benefits Received
                         1                            315.00
                         2                            222.90
                         3                            113.00
                         4                            110.00
                         5                            104.00
                         6                             93.90
                         7                             70.00
                         8                            58.00
                         9                             57.40
                        10                             56.15
                        11                             33.00
                        12                             21.00
                       Total                         1,254.35


This has been referred to our Office of Investigations for further review.


NARA’s List of Transit Benefit Participants and DOT’s Transit Database are not
Accurate

NARA’s list of transit benefit participants and DOT’s alphabetical list include names of
NARA employees who no longer participate in the transit program. GAO’s “Standards
for Internal Control in the Government” requires transactions to be promptly recorded to
maintain their relevance and value to management in controlling operations. In addition,
“Internal control should generally be designed to assure that ongoing monitoring occurs
in the course of normal operations…It includes regular management and supervisory
activities, comparisons, reconciliations, and other actions people take in performing their
duties.”

In FY 2009, responsibility of the transit program moved from Performance and
Accountability Staff to the Facilities and Property Management Division. In addition the
previous LTC in Washington, DC left NARA. As a result of all the transition, the NARA
listing of transit participants, participant files and DOT data were was not kept up-to-date
by adding new participants, and/or removing employees who were no longer eligible for
the benefit or who left NARA. As a result, NARA records were not maintained and
information was not passed on to DOT to keep their records accurate.

                                         Page 12
                      National Archives and Records Administration
                                                          OIG Audit Report No. 12-17



Recommendations

1. The Executive for Business Support Services develop a process to ensure
applications are completely filled out before supervisors, LTC’s and the NTC approve
transit benefit applications. Applications with missing information and applicants
that do not sign the Employee Certification of Eligibility or the Warning Against
Making False Statements on the transit benefit application should not be approved.
The LTC and NTC signatures should be on the transit benefit application.

2. The Executive for Business Support Services should enforce the requirement that
transit benefits not be paid unless annual renewal applications are approved.

3. The Executive for Business Support Services require employees to affix a copy of
the applicable state or local transit authority online trip planner or other
documentation supporting their commuting expenses to their application for transit
benefits.

4. The Executive for Business Support Services should require LTC’s and NTC to
document their review of verifying each applicant’s commuting expenses.

5. The Executive for Business Support Services should coordinate with BF and BX to
develop a strategy to ensure employees with transit benefits are not abusing the
system by parking in NARA parking lots.

6. The Executive for Business Support Services should coordinate with BF and BX to
allow the LTC at AII to review parking activity in the automated License Plate
Recognition system of transit participants during their monthly internal review and
for any unusual parking activity noted.

7. The Executive for Business Support Services should develop standard operating
procedures describing BF’s monthly internal review process. Further, BF’s monthly
internal review processes should include the following for considering transit related
activity for applicants selected:
• Request day’s traveled from participant’s supervisor.
• Request day’s teleworked from participant’s supervisor.
• Confirm with the Human Capital Office the home address of the participant and
    whether participants have separated from NARA.
• Confirm work address with participants’ supervisor.

   Note: Attributes tested may be adjusted based on relevant controls in various
   locations. For example, testing days not using mass transit for travel or telework
   may not be necessary in the Washington DC area where benefits are auto-loaded
   and unused benefits returned to NARA at the end of the month.



                                     Page 13
                  National Archives and Records Administration
                                                          OIG Audit Report No. 12-17


8. The Executive for Business Support Services should work with the Human Capital
Office (H) to obtain a monthly list of separated employees to reduce the risk that
employees separating from NARA collect subsidies to which they are not entitled
until the exit clearance procedures can be relied upon.

9. The Executive for Business Support Services should reconcile the NARA list of
transit program participants and DOT participant data to ensure accuracy at least
annually. Based on the results of this comparison, Transit participant files should be
updated also.

Management Response

Management concurred with the recommendations.




                                     Page 14
                  National Archives and Records Administration
                                                             OIG Audit Report No. 12-17


            Appendix A – OMB Memorandum 07-15
                  Federal Transit Benefits Program

Key internal controls to improve the administration of the transit program:

       Application
           • Employee Home Address
           • Employee Work Address
           • Commuting Cost Breakdown
           • Employee Certification of Eligibility
           • Warning Against Making False Statements in Benefit Application
       Independent Verification
           • Commuting Cost Verified by Approving Official
           • Eligibility Verified by Approving Official
       Implementation
           • Applicants Checked Against Parking Benefits Records
           • Benefits Adjusted Due to Travel, Leave, or Change of Address
           • Removal from Transit Benefits Program Included in Exit Procedures




                                        Page 15
                     National Archives and Records Administration
                                                                   OIG Audit Report No. 12-17


               Appendix B – IMPLEMENTATION OF OMB
                 PRESCRIBED INTERNAL CONTROLS


                                                                NARA          Effectively   Report
            OMB Prescribed Internal Controls
                                                                Policy       Implemented    Finding

  Application Requirements

   1. Employee Home Address                                      Yes             Yes

   2. Employee Work Address                                      Yes             Yes
                                                                                             Page 9
   3. Commuting Cost Breakdown                                   Yes             No
                                                                                             Page 9
   4. Employee Certification of Eligibility                      Yes             No

   5. Warning Against Making False Statements in Benefit                                     Page 9
                                                                 Yes             No
     Application

  Independent Verification of Eligibility
                                                                                             Page 9
   6. Commuting Cost Verified by Approving Official              Yes             No

   7. Eligibility Verified by Approving Official                 Yes             Yes

  Implementation
                                                                                            Page 10
   8. Applicants Checked Against Parking Benefits Records        Yes             No

   9. Benefits Adjusted Due to Travel, Leave, or Change of                                  Page 10
                                                                 Yes             No*
     Address

   10. Removal from Transit Benefits Program Included in Exit                               Page 11
                                                                  Yes            No
     Procedures




* NARA does review benefits to make sure they are adjusted for leave.




                                                 Page 16
                              National Archives and Records Administration
                                                   OIG Audit Report No. 12-17


Appendix C – Acronyms and Abbreviations


AII     National Archives and Records Administration, College Park, MD
BF      Facilities and Property Management
BX      Security Management
DOT     Department of Transportation
GAO     Government Accountability Office
LTC     Local Transit Coordinator
NARA    National Archives and Records Administration
NTC     National Transit Coordinator
OIG     Office of Inspector General
OMB     Office of Management and Budget
PEPCO   Potomac Electric Power Company
PTSP    Public Transit Subsidy Program




                                 Page 17
              National Archives and Records Administration
                                                 OIG Audit Report No. 12-17


Appendix D - Management’s Response to the Report




                               Page 18
            National Archives and Records Administration
                                                         OIG Audit Report No. 12-17


Appendix E - Report Distribution List

Archivist of the United States (N)
Deputy Archivist of the United States (ND)
Chief Operating Officer (C)
Chief Human Capital Officer (H)
Executive for Business Support Services (B)




                                       Page 19
                    National Archives and Records Administration
